                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A09010003                                                         11          Page 1 of 1



         We received an allegation that a figure in a submitted NSF proposal1 was improperly presented
         as the work of the proposal PI rather than as previously published work.2 Inquiry showed that the
         previously published work was properly cited and referenced in the concordant text, and that one
         of the post-doctoral authors3 of the previously published work was now working with the PI, and
         collaborated in writing the proposal. Minor changes in labels within the figure from the
         previously published figure were the result of a corrected calculation by the post doc in re-
         examination of the original data. The biographical sketch for the post-doc is included with the
         proposal, with indications that this'person would continue work on the project should the NSF
         proposal be funded. The PI affirmed that a reference in the figure caption could have helped to
         avoid confusion, along with a notice of the small correction in the figure labels. No substantive
         support for the allegation is apparent in this inquiry, and further pursuit of the matter is not
         justified.

          Accordingly, this case is closed.




          1
              Redacted.
              Redacted.
              Redacted.




NSF OIG Form 2 (1 1/02)
